VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Health 

                                                                    Administration 


                                                                            Audit of 

                                                                    Selected Non-Institutional 

                                                                        Purchased Home 

                                                                         Care Services 





                                                                                      September 30, 2013
                                                                                        11-00330-338
             ACRONYMS AND ABBREVIATIONS

ADC          Average Daily Census
CMS          Centers for Medicare and Medicaid Services
GAO          Government Accountability Office
GEC          Office of Geriatrics and Extended Care
NIC          Non-Institutional Care
OIG          Office of Inspector General
VA           Veterans Affairs
VHA          Veterans Health Administration
VISN         Veterans Integrated Service Network




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                   On the Web: http://www.va.gov/oig/hotline

                   Report Highlights: Audit of Selected
                   VHA Non-Institutional Purchased
                   Home Care Services

Why We Did This Audit                            not always verify billings before paying for
                                                 services, resulting in $67,000 in improper
We assessed whether the Veterans Health          payments. Without actions to strengthen
Administration (VHA) effectively managed         controls, VHA could pay ineligible agencies
non-institutional purchased home care            about $893.5 million and make about
services to ensure eligible veterans receive     $13.2 million in improper payments over the
entitled services. We audited these services     next 5 years.
because of their expected growth, budgeted
to increase to $798 million in FY 2013.          What We Recommended
What We Found                                    We recommended the Under Secretary for
                                                 Health standardize the application of
We estimated VHA’s waiting lists did not         eligibility reviews and criteria and
include at least 49,000 veterans who had         strengthen controls to ensure eligible
purchased home care needs in FY 2012. We         patients receive purchased home care
projected that 114 VA medical facilities         services.    We also recommended the
limited access to purchased home care            adequate review and monitoring of agencies
services through the use of more restrictive     and proper documentation and use of orders
eligibility criteria than VHA policy required,   to verify payments.
applying nonstandard review processes, and
relying on inaccurate and nonstandard            Agency Comments
eligibility information. VA facilities added
requirements to limit veterans’ access and       The Under Secretary for Health concurred
did not always use required waiting lists to     with our recommendations and provided
track eligible veterans.                         responsive action plans. We will follow up
                                                 on these actions. The Under Secretary has
This occurred because VA medical facility        concerns about the sampling methodology
officials limited the costs of services paid     and statistical analysis of our report. These
through fee service, relied on inaccurate        concerns are addressed in Appendix G.
eligibility information for skilled care
services, and redirected funds towards
higher priorities.       VHA redistributed
$76 million, VA medical facilities spent
$99 million less than VA had budgeted for
these services, and VHA did not meet its
target to increase the average daily census
for these services in FY 2012.                              LINDA A. HALLIDAY
                                                        Assistant Inspector General
VA medical facilities’ staff also did not                for Audits and Evaluations
identify 31 ineligible agencies and properly
manage 19 high-risk agencies. Fee staff did

                                                                                             i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding 1              VHA Limited Eligible Veterans’ Access to Selected Purchased Home Care

                           Services ...............................................................................................................2
 

                           Recommendations .............................................................................................14
 

    Finding 2              VHA Used Ineligible Agencies, Did Not Monitor High-Risk Agencies, and 

                           Made Improper Payments .................................................................................16
 

                           Recommendations .............................................................................................22
 

Appendix A                 Background .......................................................................................................23
 

Appendix B                 Scope and Methodology....................................................................................25


Appendix C                 Statistical Sampling Methodology ....................................................................28


Appendix D                 FY 2012 VISN Funding Allotments and Average Daily Census Data for 

                           Selected Purchased Home Care Services..........................................................32


Appendix E                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................34


Appendix F                  Under Secretary for Health Comments ............................................................35


Appendix G                 Office of Inspector General Response to the Under Secretary’s Comments ....43


Appendix H                 Office of Inspector General Contact and Staff Acknowledgments...................47


Appendix I                 Report Distribution ...........................................................................................48


	

	




                                                                                                                                                   ii
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services



                    INTRODUCTION
Objective           This audit assessed whether the Veterans Health Administration (VHA)
                    effectively managed selected non-institutional purchased home care services
                    to ensure eligible veterans received appropriate services.

Non-                VHA’s non-institutional care (NIC) program allows veterans to receive VA
Institutional       and contractor-provided services in the least restrictive environment possible.
Care Program
and Purchased
                    Under home based primary care, multidisciplinary VA caregiver teams
Home Care           monitor and care for veterans with complex and chronic health care issues in
Services            their homes. In addition, veterans may also receive more specialized
                    services, such as skilled care and homemaker/home aide, in their homes from
                    contracted agencies.       This audit examined the following contracted
                    non-institutional purchased home care services: skilled care,
                    homemaker/home aide, respite care, and hospice services. In this report,
                    “purchased home care” refers to skilled care, homemaker/home aide, and
                    respite care because we did not identify issues with hospice services.

Program Office      The Office of Geriatrics and Extended Care (GEC) provides policy direction
Responsibilities    for the development, coordination, and overall integration of VHA’s NIC
                    program. GEC also establishes NIC average daily census (ADC) targets for
                    each Veterans Integrated Service Network (VISN) to encourage the
                    expansion of NIC services, including purchased home care. The ADC
                    represents the average daily number of patients who have been provided
                    services. Each VISN establishes NIC ADC targets for their individual
                    medical facilities. VHA requires VA medical facilities to place veterans in
                    need of purchased home care services on electronic waiting lists when
                    services cannot be provided due to funding constraints.

Program             In FY 2012, purchased home care, to include hospice, constituted
Magnitude           $756 million (47 percent) of VA’s $1.6 billion NIC budget. The budget for
                    homemaker/home aide, respite, and skilled care services was $676 million,
                    and hospice’s budget was $80 million. However, VHA only provided the
                    VISNs $599 million for homemaker/home aide, respite, and skilled care and
                    $74 million for hospice. According to GEC, VISN budgets were reduced by
                    $83 million after the ADC targets for these services were reassessed and
                    lowered. In FY 2012, VA medical facilities spent about $501 million to
                    provide homemaker/home aide, respite, and skilled care and $66 million to
                    provide hospice services.      During FY 2012, VHA provided about
                    127,000 unique patients purchased home care services, to include hospice,
                    and reported an ADC of 23,300 patients. In FY 2013, the four purchased
                    home care services are expected to cost about $798 million.

Other                  Appendix A provides additional background information.
Information
                       Appendix B provides information on the audit’s scope and methodology.


VA Office of Inspector General                                                                     1
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services



                    RESULTS AND RECOMMENDATIONS 

Finding 1 	         VHA Limited Eligible Veterans’ Access to Selected
                    Purchased Home Care Services

                    We estimated that VHA’s waiting lists did not include 49,000 veterans who
                    needed homemaker/home aide, respite, and skilled care services in FY 2012.
                    The majority of the eight VA medical facilities we reviewed did not
                    consistently use waiting lists to track veterans in need of these purchased
                    home care services. Further, the eight VA medical facilities we reviewed
                    improperly limited eligible veterans’ access to these selected purchased
                    home care services. We projected that about 114 VA medical facilities
                    limited access to these services because they applied more restrictive
                    eligibility criteria and/or review processes, and in some cases, relied on
                    inaccurate eligibility information.

                    VHA and VA medical facility staff limited veterans’ access to these selected
                    purchased home care services because:

                    	 In some cases, VA medical facilities reduced the funding for these
                       services to contain the costs of services paid through fee service and to
                       make funding available for higher priorities. These VA medical facilities
                       considered purchased home care services part of their local fee care
                       budgets and made the reduction or containment of fee service costs a
                       rating element in the performance plans of some staff who evaluated
                       patients’ eligibility for purchased home care services.
                    	 Various VA published resources contained inaccurate information about
                       the eligibility requirements for purchased skilled care services.
                    	 GEC lacked adequate oversight and monitoring mechanisms for the
                       provision of homemaker/home aide, respite, and skilled care services.

                    As a result, VA medical facilities spent $99 million less than the
                    $599 million VHA had allotted or about $175 million less than the
                    $676 million Congress approved for homemaker/home aide, respite, and
                    skilled care services in VA’s FY 2012 budget. The $99 million was
                    redirected by senior officials at the VA medical facilities, such as the medical
                    facility directors and chief financial officers, to address other unidentified
                    VA medical facility needs.

                    The remaining $76 million was redistributed by VHA and was not sent to the
                    VISNs for providing purchased home care services. VHA also did not meet
                    its target to expand access and increase its FY 2012 ADC for these services




VA Office of Inspector General                                                                     2
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    by a little under 4,500 patients a day.1 Further, VHA could not ensure its VA
                    medical facilities provided one standard of care because of the application of
                    disparate eligibility criteria and the lack of standardized review processes to
                    assess veterans’ eligibility for services at VA medical facilities.

Criteria for        VA primary care physicians and interdisciplinary care teams assess veterans’
Purchased           eligibility for purchased home care services. VHA policy requires them to
Home Care
Services
                    use the following general criteria to assess veterans and to ensure the
                    provision of the purchased home care services is medically necessary and
                    appropriate.

                    To be eligible for homemaker/home aide or related respite care services,
                    veterans must meet one of the following three criteria.

                    	 Need assistance with activities of daily living such as bathing, toileting,
                       personal care, and chores
                    	 Be cognitively impaired
                    	 Have other limiting health issues, such as advanced age or clinical
                       depression

                    To be eligible for skilled care services, veterans must intermittently need one
                    or more of the following services.

                    	 Short-term or long-term skilled nursing assessment, teaching, treatment
                       services, or monitoring
                    	 Short-term or transitional rehabilitative therapies, such as physical
                       therapy, speech and language pathology services, and occupational
                       therapy
                    	 Short-term or transitional social work services

                    To be eligible for home hospice services, veterans must meet the following
                    criteria.

                    	 Be diagnosed with a life-limiting illness
                    	 Have treatment goals that focus on comfort rather than care
                    	 Have a VA physician determine if the veteran’s life expectancy is
                       6 months, or less
                    	 Accept hospice care


                    1
                      VHA’s FY 2012 ADC target was about 24,500. Its ADC was 20,000 after we adjusted
                    Veterans Support Service Center data to ensure patient counts for purchased home care
                    services only reflected the number of visits, not the reported number of billed line items.


VA Office of Inspector General                                                                               3
                                  Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    VHA policy requires VA medical facilities to immediately provide all
                    eligible veterans with hospice services either in their home, a VA medical
                    facility, or in a contracted community nursing home. Eligible veterans who
                    require homemaker/home aide, respite, and/or skilled care services must be
                    provided these services or be placed on waiting lists when VA medical
                    facilities meet their ADC targets or cannot provide the needed services due
                    to funding constraints.

                    Accurate and complete waiting lists allow VA medical facilities to monitor
                    eligible veterans whose homemaker/home aide, respite, and/or skilled care
                    needs have not been met so that these needs can be considered along with
                    other funding priorities. Placement on a waiting list also ensures veterans
                    have the opportunity to obtain needed services if funding becomes available
                    or when other veterans no longer need services.

Limiting            The eight reviewed VA medical facilities used various methods and
Access to           strategies to limit veterans’ access to homemaker/home aide, respite, and
Purchased
Home Care
                    skilled care services. They limited access through the application of more
                    restrictive local eligibility criteria and/or supplemental review processes that
                    were more stringent than nationally prescribed criteria. Many of these same
                    VA medical facilities did not maintain waiting lists because they used their
                    stringent local requirements and/or review processes to justify the denial of
                    services to otherwise eligible veterans.

                    Table 1 summarizes the purchased home care access issues identified at the
                    eight medical facilities selected for review.

Table 1
                                 Summary of Purchased Home Care Access Issues

               VA Medical           Applied Stringent       Supplemental         Did Not Maintain
                Facility             Local Criteria        Review Processes        Waiting Lists
                     1                      X                       X                     X
                     2                                              X                     X
                     3                      X
                     4                      X
                     5                                              X                     X
                     6                      X                                             X
                     7                      X                                             X
                     8                                                                    X
                  Total                     5                       3                     6
              Source: OIG analysis




VA Office of Inspector General                                                                      4
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    Based on these results, we projected that approximately 114 of the
                    143 (79 percent) VA medical facilities limited access to homemaker/home
                    aide, respite, and skilled care services. Of the 114 medical facilities, we
                    projected that 91 VA medical facilities may have used more restrictive
                    criteria and/or supplemental reviews to limit access to these services and a
                    minimum of 63 facilities did not maintain waiting lists.

Application of      Five of the eight VA medical facilities reviewed limited access to purchased
More Stringent      home care services by applying more stringent eligibility criteria for services
Criteria            than those established by VHA policy. VHA’s purchased home care policy
                    is designed to make services accessible to those veterans who need them the
                    most. VHA’s policy reflects Congress’ passage of the Veterans’ Health Care
                    Eligibility Reform Act in 1996, which expanded purchased home care
                    services eligibility to include nonservice-connected disabled veterans.
                    Despite VHA policy and the Eligibility Reform Act, VA medical facilities
                    have added requirements related to the veterans’ homebound status and/or
                    service connection that limit veterans’ access to these services.

                    Application of restrictive eligibility criteria varied based on the VA medical
                    facility. For comparison,

                    	 One VA medical facility required veterans to be homebound to be
                       eligible for homemaker/home aide services.
                    	 Another VA medical facility required veterans to have a
                       service-connected disability rating of 50 percent or higher to be eligible
                       for homemaker/home aide services.
                    	 Another VA medical facility required veterans to be hospice patients or
                       recently discharged skilled nursing facility patients with a high return
                       risk and a service-connected disability rating of 50 percent or higher to
                       be eligible for homemaker/home aide services.

                    The following examples show how veterans, eligible for homemaker/home
                    aide services under VHA policy, were ineligible and denied access to the
                    services under one medical facility’s more restrictive criteria.
Example 1               A VA physician determined that a Vietnam War veteran with bone
                        cancer needed a lift to get out of bed and assistance with daily living
                        activities and was clinically eligible to receive homemaker/home
                        aide services. However, the homemaker/home aide coordinator did
                        not approve the services because the veteran was not a hospice
                        patient or a recently discharged skilled nursing facility patient with
                        a high return risk and service-connected disability rating of
                        50 percent or higher. Consequently, the homemaker/home aide
                        supervisor recommended the veteran use Medicare to obtain the
                        services and did not place the veteran on a waiting list because she
                        was not considered eligible for the services at the VA medical

VA Office of Inspector General                                                                     5
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                        facility. At the time of our site visit, medical facility staff had not
                        followed up to determine whether or not the veteran had received
                        homemaker/home aide services through Medicare.

Example 2               Another VA physician at the same facility determined that a Korean
                        War veteran, who was recently discharged from a non-VA nursing
                        home and required the use of a lift to get out of bed and assistance
                        with daily living activities, was clinically eligible to receive
                        homemaker/home aide services. However, the homemaker/home
                        aide coordinator denied the veteran services because he was not a
                        hospice patient, and he had not been discharged from a skilled
                        nursing facility.      Consequently, the homemaker/home aide
                        coordinator recommended the veteran return to the non-VA nursing
                        home for services and did not place the veteran on a waiting list
                        because he was not considered eligible for the services at the VA
                        medical facility. At the time of our visit, medical facility staff did not
                        know whether or not the veteran had returned to the non-VA nursing
                        home.

Use of              Staff at three of the eight VA medical facilities we reviewed also used
Non-Standard        non-standard review processes to limit access to purchased home care
Review
                    services. VHA policy only requires a veteran’s VA physician or clinical care
Processes
                    team to assess the veteran’s eligibility for these services and to submit a
                    referral. Local VA medical facility managers may use additional reviews
                    performed by staff, such as occupational therapists, the Chief of GEC, and/or
                    fee program nurses at their facilities, to promote fiscal stewardship and to
                    strengthen clinical decision making. However, based on interviews of staff
                    at three VA medical facilities and our analysis of prior year performance data
                    and plans, it is our opinion that the intent of the additional reviews was to
                    limit access to these services and control fee program expenses. For
                    example:

Example 3               Staff at one VA medical facility where these additional eligibility
                        requirements were used indicated the added requirements caused
                        them to discontinue services to eligible veterans when the facility
                        needed to control its fee program costs. They had to refer these
                        veterans to resources in the community or to Medicare in order to
                        help the veterans receive these services.

                    Examples of the non-standard review processes these VA medical facilities
                    used to limit veterans’ access to purchased home care services follow.

Example 4               Veterans at one VA medical facility were required to see an
                        occupational therapist after their clinical care teams assessed them
                        and determined they were eligible for homemaker/home aide
                        services. The occupational therapists’ assessment scores, along with
                        the clinical care teams’ initial assessments, were given to the

VA Office of Inspector General                                                                       6
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                        facility’s Chief of GEC for review. In some cases, the Chief of GEC
                        decided the veterans were ineligible for the services based on the
                        occupational therapists’ scores and despite the assessments of the
                        veterans’ clinical care teams.

Example 5               Veterans at another VA medical facility were evaluated by a fee
                        program nurse after their clinical care teams and the skilled care
                        coordinator had evaluated them and determined they were eligible
                        for skilled care. The fee program nurse reviewed the veterans’
                        medical records to determine if community resources could provide
                        the care and to assess the veterans’ degree of “medical necessity.”
                        The nurse’s review included various factors, such as whether or not
                        the veterans had the ability to travel to a VA facility or clinic for the
                        needed services. Veterans, who could obtain the purchased home
                        care services from other community sources or, in the case of skilled
                        care, could travel to a VA medical facility or clinic for the services,
                        were deemed ineligible. These veterans could not receive the
                        necessary services in their homes even though they met VHA
                        eligibility criteria.

                    Although additional eligibility reviews may serve a worthwhile and
                    necessary function at VA medical facilities, we are concerned that some VA
                    medical facilities use these additional reviews to limit eligible veterans’
                    access to these services and that this leads VHA away from one standard of
                    care in the provision of purchased home care services.

Non-compliance      Six of the eight reviewed VA medical facilities did not follow VHA policy
with Waiting List   and a 2010 policy reminder from the Deputy Under Secretary for Health
Requirement         Office of Management that required the maintenance of waiting lists. The
                    majority of these VA medical facilities did not maintain required waiting
                    lists in order to mask or constrain the demand for purchased home care
                    services and to limit eligible veterans’ access to these services.

                    In our opinion, veterans who were eligible for purchased home care services
                    under VHA policy were inappropriately deemed ineligible due to the
                    application of the VA medical facilities’ local criteria and non-standard
                    review processes. Although skilled care can be provided at a VA medical
                    facility, one benefit of offering veterans purchased home skilled care services
                    is to relieve them of the burden of traveling to a VA medical facility.

                    Further, in many cases where VA medical facility staff identified other
                    sources to pay for needed homemaker/home aide, respite, or skilled care
                    services, the veterans were referred to the Centers for Medicare and
                    Medicaid Services (CMS) or other resources in the community. However,
                    medical facility staff did not always ensure veterans obtained the needed
                    services, and staff tended not to follow up on referrals to community
                    resources. Regardless of their efforts to assist veterans, VA medical facility

VA Office of Inspector General                                                                      7
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    staff were responsible under VHA policy for properly identifying eligible
                    veterans and maintaining waiting lists for purchased home care services.

                    The waiting list process became irrelevant at the majority of these facilities
                    because veterans who met VHA eligibility criteria, but did not meet the VA
                    medical facilities’ local criteria or pass their local review processes for
                    purchased home care services, were not placed on waiting lists. Staff at
                    some VA medical facilities also voiced concerns that the maintenance of
                    waiting lists created a stigma for their medical facilities. Yet, properly
                    maintained waiting lists provide complete information on the unmet
                    purchased home care needs of eligible veterans and help VHA assess its
                    ability to budget for and deliver timely services to veterans.

Impact of           The use of restrictive local eligibility criteria and review processes reduced
Restrictive         the number of veterans placed on waiting lists. It also, in many cases,
Local Eligibility   allowed VA medical facilities to not maintain waiting lists. In order to
Practices on
                    estimate the demand for purchased home care services that was not reported
Waiting Lists
                    on VHA waiting lists, we developed the following benchmarking and
                    estimation process:

                    	 Based on VA’s FY 2012 budget, we determined that VA expected to
                       provide purchased home care services to about 5 percent of the veterans
                       enrolled in VA.
                    	 We consulted with GEC and decided to be conservative and to only
                       apply the 5 percent benchmark to those enrolled veterans who were
                       65 years and older since these veterans were the most likely to need the
                       most services.
                    	 We then applied the 5 percent benchmark to the enrolled 65 or older
                       veteran population at the eight reviewed VA medical facilities and to the
                       nationwide enrolled veteran population to estimate the demand for
                       purchased home care services.
                    	 Lastly, we deducted the number of veterans who had either received the
                       services or were placed on waiting lists to estimate the unmet demand for
                       services not recorded on waiting lists.

                    Table 2, shows the FY 2012 demand for purchased home care services that
                    was not captured on waiting lists when we applied this benchmarking and
                    estimation process. We limited the estimated number needing services to
                    5 percent of those over 65-years old.




VA Office of Inspector General                                                                     8
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services




Table 2
                           FY 2012 Demand for Purchased Home Care Services
                                  Not Captured on VHA Waiting Lists

                                                                                         Veterans
                                           Estimated
                          Enrolled                         Veterans        Wait         Not Placed
                                            Number
              Facility    Veterans                         Provided        Listed           on
                                            Needing
                          Over 65                          Services       Veterans       Waiting
                                            Services
                                                                                          Lists
                 1         46,400            2,300             800             0           1,500
                 2         28,000            1,400             200             0           1,200
                 3         23,500            1,200             400            40             760
                 4         22,900            1,100             500           180             420
                 5         33,600            1,700           1,300             0             400
                 6         32,500            1,600           1,300             0             300
                 7         18,200              900             600             0             300
                 8         15,600              800             600             0             200
            Estimated Number of Veterans at the Eight Reviewed Facilities
                        220,700        11,000         5,700         220                    5,080
            Estimated Number of Veterans Nationally
                      4,100,000      199,000         147,000       3,000                  49,000
            Source: VHA Support Service Center and VA OIG analysis

                     Using this benchmark and available VHA data, we estimated in FY 2012 that
                     the 8 reviewed VA medical facilities did not include almost 5,100 veterans
                     who needed purchased home care services on waiting lists. We estimated
                     that nationally, VA did not include a total of 49,000 veterans on waiting lists.

Reasons for          VHA and VA medical facility staff limited veterans’ access to these selected
Limited              purchased home care services because:
Access
                     	 VA medical facilities reduced the funding for these services to contain
                        the costs of services paid through fee service and to make funding
                        available for higher priorities. These VA medical facilities considered
                        purchased home care services part of their local fee care budgets and
                        made the reduction or containment of fee service costs a rating element
                        in the performance plans of some staff who evaluated patients’ eligibility
                        for purchased home care services.
                     	 Various VA sources contained inaccurate information about the
                        eligibility requirements for purchased skilled care services.



VA Office of Inspector General                                                                     9
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    	 GEC lacked adequate oversight and monitoring mechanisms for the
                       provision of purchased home care services.

Funding             Six of the eight VA medical facilities included purchased home care services
Constraints and     under their fee program budget even though purchased home care services
Priorities
                    are not fee program services.2 Managers at five of those six medical
                    facilities indicated they needed to reduce or contain fee costs and the use of
                    purchased home care services due to funding constraints.

                    Further, these VA medical facility managers often did not consider the
                    provision of purchased home care services a high priority compared to other
                    medical services paid through the fee program. Thus, the facilities generally
                    did not adjust their funding to account for increases in ADC targets and the
                    need for these services. Veterans’ access to purchased home care services
                    may also have been influenced by the inclusion of a rating element to reduce
                    or contain fee care costs in the performance plans of VA medical facility
                    staff, such as the Chief of GEC, who made eligibility determinations for
                    purchased home care services.

Inaccurate          Staff at two VA medical facilities applied more restrictive eligibility criteria
Eligibility         for skilled care services than required because of inaccurate eligibility
Information         information published by VA and GEC. Staff at these facilities used
                    inaccurate guidance provided in VA’s “Veterans’ Health Care Benefits
                    Overview” booklet and on GEC’s skilled care Web page that stated veterans
                    must be homebound to be eligible for skilled care services. VHA policy
                    does not require veterans to be homebound. Veterans are only required to
                    need short-term services, such as occupational and physical therapy, or
                    long-term skilled care services, such as wound or catheter care. GEC
                    officials confirmed that VA medical facilities need to follow VHA skilled
                    care eligibility requirements and that veterans do not need to be homebound.

Inadequate          GEC did not adequately oversee and monitor the provision of
Oversight and       homemaker/home aide, respite, and skilled care services. Specifically, GEC
Monitoring          issued broad eligibility criteria and established a waiting list requirement but
                    lacked adequate monitors to ensure VA medical facilities uniformly applied
                    the criteria and implemented consistent eligibility review and waiting list
                    processes. GEC was unaware VA medical facilities had implemented
                    additional eligibility criteria and/or supplemental reviews to apply their own
                    interpretations of “medical necessity.” While GEC realized that many
                    VISNs and VA medical facilities had not met their ADC targets prior to
                    FY 2012 and were not maintaining waiting lists, GEC did not take
                    appropriate action to address and resolve these problems.
                    2
                      Purchased home care services are not governed by the regulations of VHA’s fee for service
                    program, although the bills are processed through fee service. Unlike fee services, all
                    enrolled veterans who need purchased home care services are eligible for them regardless of
                    their service connection and geographic distance from a VA medical facility.


VA Office of Inspector General                                                                              10
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    GEC’s inadequate oversight and monitoring enabled VA medical facilities to
                    limit access and mask the demand for homemaker/home aide, respite, and
                    skilled care services. A GEC official indicated that GEC lowered the
                    FY 2012 ADC NIC targets established in VA’s approved budget based on its
                    assessment of the VISNs’ past performance and veterans’ utilization of
                    purchased home care services. GEC did not believe the budgeted ADC
                    targets were achievable and that they needed to be adjusted based on the
                    utilization rate of these services.

                    GEC lowered the ADC targets established in VA’s approved FY 2012
                    budget for these services from about 25,400 to 24,500 patients, or by an
                    average of 900 veterans a day, with the approval of VHA officials. In our
                    opinion, VHA and GEC made this decision based on the inaccurate
                    assumption that the demand for purchased home care services was low and
                    not suppressed by VA medical facilities. Due to these lower targets:

                    	 Seventy-six million of the original $676 million in funding that Congress
                       budgeted for homemaker/home aide, respite, and skilled care was
                       redistributed to other VHA healthcare areas because the VISNs
                       purchased home care utilization rate did not support the ADC targets
                       presented in VA’s approved budget. Based on the budget Congress
                       approved, VA could have provided just over 199,000 veterans purchased
                       home care services in FY 2012, but the VISNs only received about
                       $599 million to provide approximately 176,500 patient services, a
                       difference of about 22,500 veterans.
                    	 VHA did not identify VA medical facilities that limited access to
                       purchased home care and did not use waiting lists. The lower ADC
                       targets for the VISNs, as well as other NIC performance monitoring
                       system changes helped 14 of VHA’s 21 VISNs’ achieve their FY 2012
                       NIC performance measure.3 If VHA had not lowered the ADC targets
                       for the VISNs, VHA could have come closer to meeting its national NIC
                       ADC target in the FY 2012 Performance Accountability Report.4

                    Weaknesses in GEC’s ADC methodology also encouraged VA medical
                    facilities to limit access to these services. Although GEC obtained and
                    published individual ADC data for purchased home care services on a VA
                    Web site for VA medical facilities to review, GEC relied on a general NIC
                    ADC target to monitor the provision of all NIC services, including purchased
                    3
                      Other performance monitoring system changes for FY 2012 included eliminating the
                    average workload requirements for homemaker/home aide and allowing the VISNs to meet
                    the NIC performance measure if they closed the gap between their FY 2011 end-of-year
                    performance and FY 2012 ADC targets by 50 percent.
                    4
                       The Performance Accountability Report is designed to enable VA management,
                    stakeholders, and employees to assess VA’s program and financial performance as
                    compared to its goals and to use this information to make necessary improvements. VHA
                    missed its FY 2012 NIC ADC target by just over 8,800 patients.


VA Office of Inspector General                                                                        11
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    home care services. GEC did not notice inconsistencies and problems in the
                    VA medical facilities provision of individual NIC services, while its
                    attention was focused on monitoring the overall NIC program.

                    According to a VHA official who worked with GEC to establish the NIC
                    ADC targets, they developed comprehensive NIC targets for each VISN
                    because it was easier than assigning individual targets to medical facilities or
                    specific purchased home care services. A GEC official also indicated that
                    GEC did not believe they had the capacity to project needs at the individual
                    VA medical facility level.

                    Even though home based primary care is key to VHA’s NIC program, and
                    VA medical facilities high utilization of these services may be justified,
                    GEC’s NIC ADC target methodology encouraged VA medical facilities to
                    focus on using this service to meet its NIC target instead of providing needed
                    purchased home care services. When we reviewed data for the eight VA
                    medical facilities, which were all located in different VISNs, we expanded
                    our data analysis to include all of the VA medical facilities in the VISNs.

                    We noted that 14 of the 57 VA medical facilities in the 8 VISNs relied on
                    home based primary care services to increase their NIC ADC and had not
                    expanded services to address veterans’ purchased home care needs. As an
                    example, one VA medical facility that met its FY 2012 NIC ADC target with
                    an ADC of 713 patients provided 514 (72 percent) veterans home based
                    primary care, 147 (21 percent) veterans purchased home care, and
                    52 (7 percent) veterans other miscellaneous NIC services.

                    GEC’s ADC target methodology allowed VA medical facilities to receive
                    ADC credit for 365 days if a veteran was enrolled in home based primary
                    care and the veteran received at least 10 visits during the year. In contrast, if
                    VA medical facilities provided 10 purchased home care visits in a year, they
                    only received ADC credit for 10 days. The effects of this ADC methodology
                    on NIC workload reporting were noted in a 2004 Government Accountability
                    Office (GAO) report.5

                    GAO reported that the use of enrolled days instead of visits to measure home
                    based primary care did not accurately reflect the amount of services veterans
                    received and inflated workload data compared to other NIC services.
                    Although VHA did not concur with GAO’s findings, it agreed to consider
                    different methodologies to assess home based primary care workload.
                    However, VHA still uses enrolled days instead of visits to measure home
                    based primary care workload.



                    5
                     More Accurate Measure of Home-Based Primary Care Workload Is Needed (Report No.
                    GAO-04-913, September 8, 2004).


VA Office of Inspector General                                                                    12
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    Finally, our review and analysis of the data for 57 of the VA medical
                    facilities in the 8 different VISNs identified additional inaccuracies and
                    weaknesses in the ADC data used to measure NIC workload. Thirty-eight
                    (67 percent) VA medical facilities, including 6 we visited, had inflated
                    purchased home care ADCs because GEC relied on billing instead of visit
                    data reported in the fee system. This practice meant that the ADC data was
                    inflated if VA medical facility staff improperly entered service visits by
                    hours or as separate line items instead of one line item in the fee billing
                    system.

Example 6              Staff at six VA medical facilities routinely entered the services that
                       agencies provided during a single visit as multiple line items in the
                       fee system. Staff did this because they were unaware that VHA policy
                       required the visit to be recorded as one line item. Consequently,
                       when we compared national VHA purchased home care ADC data
                       and purchased home care visit data, we estimated that 93 of 143 VA
                       medical facilities had overstated their ADC by a total of about 2,100
                       veterans, thus inflating the ADC for these purchased home care
                       services from 20,000 to 22,100 veterans.

                    Three VA medical facilities in the reviewed VISNs also reported increases in
                    their NIC purchased home care ADC without increasing veterans’ access to
                    these services. An examination of their ADC data showed these facilities
                    increased their ADCs by increasing the frequency of the visits provided to
                    existing enrolled veterans and decreasing or keeping the number of veterans
                    who received services constant. This occurred because senior officials at
                    either the VISN or medical facility directed their facility coordinators to
                    “spread out” the visits of existing veteran patients instead of providing
                    services to more veterans. Consequently, the total purchased home care
                    ADC for these three facilities increased by about 10 (4 percent) veterans, but
                    the number of veterans who received these services decreased by about
                    390 (14 percent) between FY 2011 and FY 2012.

Effects of          VA medical facilities’ use of different eligibility criteria, review processes,
Limited             and the non-use of waiting lists meant that each VA medical facility
Access
                    maintained a different standard of care for the provision of homemaker/home
                    aide, respite, and skilled care services. In addition, VA medical facilities
                    were not collecting information on the demand for these services in a
                    consistent and complete manner. In many instances, VA medical facilities’
                    local eligibility processes restricted the provision of these services and
                    sought to constrain the demand for services.

                    These practices inadvertently led VHA to lower the ADC targets and to
                    decrease the funding available for homemaker/home aide, respite, and skilled
                    care services in FY 2012 by $76 million. Additionally, VA medical facilities
                    did not spend about $99 million (17 percent) of the $599 million that was
                    allotted for these services, and VHA missed its ADC target by a little under

VA Office of Inspector General                                                                    13
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    4,500 veterans in FY 2012. VA medical facility senior officials, such as
                    medical facility directors and chief financial officers redirected $99 million
                    to address other unidentified VISN and VA medical facility needs. As a
                    result, a total of $175 million intended for purchased home care services was
                    redirected to other VHA healthcare areas. Appendix D provides VISNs’
                    FY 2012 budget allotments and ADC data.

Conclusion          VHA did not implement one standard of care for the provision of selected
                    purchased home care services because VA medical facilities applied different
                    eligibility criteria and review processes. As a result of these differences, a
                    veteran who is eligible for selected purchased home care services at one VA
                    medical facility may not be eligible for the same services at another facility.
                    VHA lacks adequate oversight and monitoring needed to ensure that it is
                    providing consistent and equitable access to purchased home care services to
                    eligible veterans across the nation.

                    VHA also cannot meet its ADC targets or overall goal of expanding NIC,
                    including purchased home care services, until VHA and VA medical
                    facilities use budgeted purchased home care service funds for their intended
                    purpose. At a minimum, VHA must ensure its medical facilities consistently
                    apply VHA eligibility criteria and use waiting lists to effectively evaluate the
                    unmet, and possibly unfunded, purchased home care needs of eligible
                    veterans.

                    Recommendations

                     1.	 We recommended the Under Secretary for Health ensure VA medical
                         facilities apply standardized eligibility criteria and ensure purchased
                         home care review processes are not improperly used to limit access to
                         purchased home care services.
                     2.	 We recommended the Under Secretary for Health ensure VA medical
                         facilities maintain waiting lists for purchased home care services and
                         assess eligible veterans’ unmet needs for services.
                     3.	 We recommended the Under Secretary for Health correct eligibility
                         information in VA’s “Veterans’ Health Care Benefits Overview” booklet
                         and on the Office of Geriatrics and Extended Care’s Web site to be
                         consistent with VHA policy and indicate veterans do not have to be
                         homebound to be eligible for purchased skilled care services.
                     4.	 We recommended the Under Secretary for Health strengthen
                         non-institutional care program oversight to monitor budgeted and
                         expended funding for purchased home care services and ensure average
                         daily census performance monitoring data is accurate, reliable, and
                         transparent.




VA Office of Inspector General                                                                    14
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                     5.	 We recommended the Under Secretary for Health implement effective
                         performance measures for purchased home care services to ensure VA
                         medical facilities do not improperly limit access to services.

Management          The Under Secretary for Health agreed with our recommendations and plans
Comments            to address our recommendations by June 30, 2014. VHA will initiate a
                    series of actions to strengthen overall purchased home care oversight, the
                    application of national policies and processes, and the use of waiting lists.
                    VHA’s planned actions include the following:

                    	 Initiate a 3-part education and oversight process for VISN and facility
                       leadership for purchased home care.
                    	 Conduct audits to identify and review medical facilities’ policies to
                       ensure national purchased home care policy is implemented.
                    	 Change the electronic waiting list software and require VHA, VISN, and
                       local officials to monitor and report on VA medical facilities’ use of
                       waiting lists.
                    	 Require submission of quarterly waiting list reports and action plans to
                       address unmet needs of veterans on waiting lists longer than 30 days.
                    	 Correct GEC’s Web site and the “Veterans’ Health Care Benefits
                       Overview” booklet to reflect the appropriate eligibility criteria for
                       purchased home care services.
                    	 Improve the NIC performance measure to ensure the use of visits instead
                       of line items to assess workload and performance.
                    	 Monitor obligations for selected Home and Community Based Services
                       and Purchased Skilled Care Services.
                    	 Include an NIC access performance measure in each of the VISN
                       Directors’ FY 2014 performance plans.

                    Appendix F includes the full action plan, as well as, the Under Secretary’s
                    concerns about the OIG’s sampling methodology and statistical analysis.

OIG Response        The Under Secretary provided a responsive action plan to address our
                    recommendations. We will monitor the Department’s progress and follow
                    up on its implementation until all proposed actions are completed. The
                    OIG’s response to the Under Secretary’s concerns is provided in
                    Appendix G.




VA Office of Inspector General                                                                    15
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Finding 2       	   VHA Used Ineligible Agencies, Did Not Monitor
                    High-Risk Agencies, and Made Improper Payments

                    We estimated that VHA annually uses approximately 1,300 ineligible
                    agencies to provide about $178.7 million in purchased home care services
                    and does not adequately monitor approximately 800 high-risk agencies that
                    provide under $21.2 million in purchased home care services. We found that
                    31 of the 200 home care agencies we reviewed lacked required State licenses
                    and/or CMS certifications.

                    These 31 ineligible agencies provided over 1,100 veterans with $5 million in
                    homemaker/home aide, respite, and skilled care services. VA medical
                    facility staff should have identified these home care agencies and determined
                    that they were ineligible to provide services. In addition, VA medical
                    facilities did not properly monitor 19 high-risk agencies that provided about
                    $1.3 million in skilled care services to just over 700 veterans. VHA also
                    made about $2.6 million in improper payments annually for selected
                    services.

                    This occurred because GEC and VA medical facilities did not ensure facility
                    staff took appropriate actions to mitigate risks to veterans by properly
                    identifying ineligible agencies and managing agencies determined to be
                    high-risk. Further, home care coordinators did not always ensure providers
                    properly prepared and documented orders for services, and fee staff did not
                    always verify the appropriateness of billings before payments for services
                    were processed.

                    Without strengthened management of purchased home care services, we
                    estimated over the next 5 years that VHA will use about 1,400 ineligible
                    agencies to provide about $893.5 million in services, lack adequate
                    monitoring for over 800 high-risk agencies that provide $106 million in
                    services, and make just over $13.2 million in improper payments.

Issues with 	       The eight VA medical facilities we reviewed did not consistently ensure the
Managing Home       use of eligible agencies and proper monitoring of high-risk agencies.
Care Agencies
                    Table 3 summarizes the purchased home care management issues identified
                    at these eight medical facilities.




VA Office of Inspector General                                                                    16
                                  Audit of Selected VHA Non-Institutional Purchased Home Care Services




Table 3
                                 Summary of Purchased Home Care Management Issues
                                              at VA Medical Facilities

                         VA Medical                                         Inadequate Oversight
                                              Used Ineligible Agencies
                          Facility                                          of High-Risk Agencies
                                 1                                                     X
                                 2                        X                            X
                                 3                        X
                                 4                        X
                                 5                                                     X
                                 6                        X                            X
                                 7                        X                            X
                                 8                                                     X

                             Total                         5                           6

                      Source: VHA Central Fee Basis System, CMS Data, and VA OIG
                              analysis

Unlicensed          Five VA medical facilities used 31 ineligible purchased home care agencies
and/or              that lacked required State licenses and/or CMS certifications. These
Uncertified
Agencies
                    ineligible agencies provided over 1,100 veterans with $5 million in
                    homemaker/home aide, respite, and skilled care services during our review
                    period of April 1, 2011 to March 31, 2012. VHA policy requires agencies to
                    have a State license and/or a CMS certification to be eligible to provide
                    purchased home care services. Further, VA medical facilities must obtain
                    exemptions from GEC if they use an ineligible agency. VA medical
                    facilities had not requested and obtained exemptions from GEC to use these
                    31 ineligible agencies.

                    VHA requires the use of licensed or certified purchased home care agencies
                    to assure the agencies comply with applicable health and safety standards,
                    meet State qualifications requirements, and comply with Federal and State
                    laws. For States that do not require licenses for services, such as
                    homemaker/home aide, VA medical facilities are required to either use
                    CMS-certified agencies or to obtain an exemption from these requirements
                    from GEC. The following example illustrates how a VA medical facility
                    obtained purchased home care services from ineligible agencies even though
                    certified agencies that provided similar services were available.


VA Office of Inspector General                                                                     17
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Example 7               Staff at one VA medical facility stated they believed it was
                        acceptable to use uncertified agencies if the State did not require a
                        license. They did not, as a rule, check purchased home care
                        agencies for CMS certifications. Consequently, the medical facility
                        used four agencies that were not CMS-certified to provide about
                        $34,000 in homemaker/home aide and/or skilled care services to five
                        veterans.

                    VA medical facility home care coordinators either were unaware of VHA
                    oversight and quality monitoring requirements for purchased home care
                    agencies or they misunderstood the requirements.           The home care
                    coordinators at the five VA medical facilities that used unlicensed and/or
                    uncertified agencies did not know they routinely needed to monitor agencies
                    to ensure agencies were licensed and/or CMS-certified. Coordinators were
                    also not aware of the requirement to annually report findings and action
                    plans to VA medical facility managers. Monitoring was further lacking
                    because facility managers did not require home care coordinators to submit
                    purchased home care oversight and monitoring reports to them annually.

                    Facility staff did not know they needed to review agencies’ licenses and
                    CMS certifications and to obtain exemptions from GEC when they used
                    ineligible agencies. VHA policy states that VA medical facilities are
                    required to obtain exemptions to use ineligible agencies but it did not include
                    specifics on how the VA medical facilities were to request and obtain the
                    exemptions. This omission in VHA policy contributed to the inaction of VA
                    medical facility staff in requesting exemptions for ineligible agencies.

                    According to GEC officials, VA medical facilities should have established
                    controls to ensure patients received adequate care, including sufficient
                    monitoring and tracking of patient complaints and care issues. Facility
                    officials should also have conducted an assessment of the impact of using
                    these agencies, in order to obtain exemptions for ineligible agencies.
                    However, these specific requirements were never included in VHA’s policy
                    requiring the exemption. Based on the results of our audit, we estimated that
                    VHA annually uses about 1,300 ineligible agencies to provide about
                    $178.7 million in purchased home care services.

Agencies with       VA medical facility staff at 6 of the reviewed VA medical facilities did not
Unacceptable        properly monitor 19 high-risk agencies that provided about $1.3 million in
CMS Quality
Measures
                    skilled care services to over 700 veterans during our review period.
                    High-risk agencies are agencies that did not perform better than the State
                    average on at least 50 percent of CMS’ quality measures.

                    VHA policy requires VA medical facility staff to monitor CMS-certified
                    agencies if the agencies do not perform better than the State average on at
                    least 50 percent of CMS’ quality measures in order to minimize the risk of


VA Office of Inspector General                                                                    18
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    quality of care problems. The CMS certification process includes 22 quality
                    measures to assess a home health agency’s performance in areas such as:

                       Treatment of patients’ pain
                       Treatment of heart failure patients’ symptoms
                       Management of pressure/bed sore risks
                       Management of patient fall risks
                       Frequency of patient admissions to the hospital

                    If CMS-certified agencies do not meet VHA’s quality of care standards, VA
                    medical facility staff are required to develop action plans for those areas
                    where the agencies are deficient and to annually report these issues to VA
                    medical facility management. According to GEC officials, they expected
                    medical facility staff to discuss low scores with the agency’s leadership, to
                    determine the reasons for the scores, and to ensure the agency improved its
                    scores. However, the actions the GEC officials outlined were not found in
                    VHA’s purchased home care policy.

                    Staff at five VA medical facilities did not consistently review the agencies’
                    CMS quality measure scores. Further, four medical facilities did not develop
                    action plans for those areas where the agencies were deficient, and report
                    these issues to VA medical facility management. One facility reviewed
                    CMS quality measure scores, but did not prepare action plans for those
                    agencies that had significant deficiencies in their CMS scores. The
                    following example illustrates the potential risks veterans encounter when
                    high-risk agencies are not properly identified and monitored.

Example 8               A home care agency that provided skilled care services to over
                        400 veterans did not perform better than the State average on at
                        least 50 percent of the CMS’ quality measures. The agency only
                        exceeded the State’s average scores for 7 (33 percent) of the
                        21 applicable quality measures. One measure the agency was
                        deficient in involved the assessment of veterans’ risk for falls. The
                        State average for this measure was 89 percent, but the agency’s
                        score was well below the State average at 68 percent. The VA
                        medical facility lacked action plans for this measure and other
                        measures where the agency was deficient, such as the number of
                        patients admitted to hospitals and improvements in activities of daily
                        living.

                    We estimated that VHA does not adequately monitor approximately
                    800 high-risk agencies that annually provide about $21.2 million in services
                    to veterans.



VA Office of Inspector General                                                                    19
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Documentation       From our review of 89 purchased home care invoices totaling over
of Orders for       $900,000 at one VA medical facility, we determined that fee staff at this
Services            facility made about $67,000 in improper payments when they processed
                    14 purchased home care invoices. We did not identify any significant
                    problems in the documentation of orders at the remaining seven VA medical
                    facilities that we reviewed. Although we only identified this issue at one
                    medical facility, the VA Office of Inspector General (OIG) has noted in a
                    number of its prior reports other problems related to the proper authorization
                    of payments for services provided under VA contracts or VHA’s fee
                    program.6

                    VA physicians either did not prepare required orders or prepared orders that
                    lacked specific information about the frequency of the services to be
                    delivered. In some instances, physicians prepared “open-ended” orders that
                    did not include specific information in the initial order and coordinated
                    delivery of the services directly with the agencies. As a result of inadequate
                    ordering procedures, fee staff lacked the documentation needed to verify the
                    appropriateness of 14 billed purchased home care services resulting in nearly
                    $67,000 in improper payments.

                    VA policy requires medical staff to document orders for purchased home
                    care services in the patients’ medical records, and to include information,
                    such as the type, frequency, and duration of the services to be delivered. VA
                    fee policy requires fee staff to review order information to verify the
                    appropriateness of the billed services. The fee service review is designed to
                    reduce the risk of improper payments, such as duplicate payments, incorrect
                    payments, or payments for unauthorized services. The Improper Payments
                    Elimination and Recovery Act of 2010 calls for all Federal agencies to
                    reduce improper payments where an incorrect amount is paid or the
                    appropriateness of a payment cannot be verified due to insufficient
                    documentation.

                    The following example illustrates how an improper payment occurred due to
                    insufficient order documentation.

Example 9               A VA physician prepared an order indicating the veteran required
                        skilled services for 60 days, but the order did not specify the
                        frequency or number of visits the veteran was to receive. Fee staff
                        stated that they paid for these services because an order was in the
                        veteran’s medical record. However, the lack of information
                        regarding the number of ordered visits prevented the fee staff from


                    6
                      The most recent reports include Review of South Texas Veterans Health Care System’s
                    Management of Fee Care Funds (Report No. 11-04359-80, January 10, 2013) and Review of
                    Alleged Mismanagement of Non-VA Fee Care Funds at the Phoenix VA Health Care System
                    (Report No. 11-02280-23, November 8, 2011).


VA Office of Inspector General                                                                        20
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                        verifying whether all 12 of the billed visits costing over $1,500 were
                        necessary and appropriate.

                    The VA medical facility home care coordinator and fee service supervisor
                    did not consider the absence of orders a problem. They believed there was
                    sufficient information available to pay for the billed services, as long as
                    patients certified that they had received the services. When orders were
                    available, they considered an order sufficient even when the frequency of the
                    service was not identified. The home care coordinator and the fee supervisor
                    did not understand the importance of properly prepared orders in ensuring
                    the availability of sufficient funding, recording the correct financial
                    obligation amount, and verifying billed services to reduce the risk of
                    improper payments and significant budget shortfalls. Based on the results
                    from this medical facility, we projected that VA medical facilities annually
                    make about $2.6 million in improper payments for purchased home care
                    services due to inadequately documented orders.

Effect of           VHA lacks the program controls needed to effectively evaluate and detect
Program Risk        problems in the management of purchased home care services. Based on our
                    results, this is a significant program risk. We estimated that if controls are
                    not strengthened over the next 5 years, VHA will purchase about
                    $893.5 million in services from just under 1,400 ineligible agencies and
                    approximately $106 million in services from over 800 high-risk agencies
                    without any controls to mitigate the risks to veterans.7 VHA will also make
                    about $13.2 million in improper payments due to the inadequate
                    documentation of orders and inability to verify the need and appropriateness
                    of billed services.

Conclusion          VA medical facilities will not be able to ensure the quality of just under
                    $1 billion in purchased home care services provided veterans over the next
                    5 years if they do not strengthen management controls for these services. At
                    present, VA medical facilities lack the monitoring mechanisms and oversight
                    controls to prevent the use of 1,400 ineligible agencies and ensure the
                    adequate monitoring of over 800 high-risk home care agencies.

                    We considered this a significant program risk because the use of ineligible
                    agencies and inadequate monitoring of high-risk agencies increases the
                    likelihood of veterans experiencing quality of care and service delivery
                    problems. In addition, we found that some VA medical facilities may be
                    prone to making improper payments for purchased home care services over
                    the next 5 years because physicians and other healthcare providers do not

                    7
                      Funds paid to high-risk agencies were not included in Appendix E regarding potential
                    monetary benefits because VA medical facilities can use these agencies as long as they
                    implement adequate action plans. VA policy does not specifically prohibit the use of these
                    agencies.


VA Office of Inspector General                                                                             21
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    consistently prepare adequate orders for services, and fee staff do not
                    consistently review the orders to verify the appropriateness of the billed
                    services.

                    Recommendations

                     6.	 We recommended the Under Secretary for Health implement
                         management controls to ensure VA medical facilities adhere to the
                         Veterans Health Administration’s requirements related to the
                         identification and management of ineligible and high-risk purchased
                         home care agencies.
                     7.	 We recommended the Under Secretary for Health clarify the Veterans
                         Health Administration’s purchased home care policies and provide
                         appropriate VA medical facility staff training on the proper use of
                         eligible purchased home care agencies, exemptions, and the monitoring
                         of high-risk agencies.
                     8.	 We recommended the Under Secretary for Health establish effective
                         controls and monitors to ensure providers properly document orders and
                         fee staff properly verify the appropriateness of the services in
                         accordance with VA fee policies before they pay for purchased home
                         care services.

Management          The Under Secretary for Health concurred with our recommendations and
Comments            plans to address our recommendations by March 30, 2014. VHA plans to
                    issue a memorandum to VA medical facilities to reinforce and clarify quality
                    oversight and monitoring requirements for purchased home care services.
                    VHA will also conduct an audit at 25 VA medical facilities to verify
                    compliance with quality requirements, and conduct additional periodic audits
                    as deemed necessary.

                    VHA intends to provide management and clinical staff written clarifications
                    and training on the use of home care agencies, appropriate monitoring, and
                    the exemption approval process. A memorandum will reinforce and clarify
                    fee staff’s requirements to review and verify that orders contain specific
                    information. Lastly, quarterly reviews will be conducted by facility home
                    care coordinators to ensure the proper documentation of orders.

                    Although the Under Secretary agreed with our recommendations and is
                    taking action to address these recommendations, the Under Secretary
                    expressed concerns about the OIG’s sampling methodology and statistical
                    analysis. Appendix F provides the full text of the Under Secretary’s
                    comments.

OIG Response        The Under Secretary provided a responsive action plan to address our
                    recommendations. We will monitor the Department’s progress and follow
                    up on its implementation until all proposed actions are completed.


VA Office of Inspector General                                                                    22
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix A          Background

Purpose of          In 1996, Congress passed the Veterans’ Health Care Eligibility Reform Act,
Purchased           expanding eligibility for purchased home care services to all enrolled
Home Care
Services
                    veterans for a range of medically necessary services. Prior to the passage of
                    this Act, veterans needed a service-connected disability to be eligible for
                    services. Today, all enrolled veterans are eligible for a comprehensive range
                    of in-home services as identified in VA’s healthcare benefits package
                    (Title 38 Code of Federal Regulations, 17.38 (a) (1) (ix)). Veterans of all
                    ages are eligible to use purchased home care services which are an important
                    component of VHA’s healthcare service package.

                    VHA’s purchased home care service goals are to ensure that clinically
                    appropriate services are available in veterans’ homes to restore or improve
                    veterans’ health status, maintain their independence, or to provide
                    comfort-oriented services at the end of their lives. An additional VHA goal
                    is to ensure VA medical facilities’ approaches are flexible and innovative
                    with an emphasis on assuring the best resources are accessible to veterans in
                    need of such care. We reviewed skilled care, homemaker/home aide, respite,
                    and hospice services which are described below in more detail.

                    	 Skilled care provides patients short-term or long-term skilled care, such
                       as wound care.
                    	 Homemaker/home aide services assist patients with personal care or
                       other activities of daily living.
                    	 Respite care gives family caregivers and other informal social support
                       workers temporary relief.
                    	 Hospice provides final-stage care and focuses on the comfort of patients
                       with advanced, life-limiting diseases.

Process for         Under the Veterans Equitable Resource Allocation model, VHA allocates
Purchased           funding to VISNs based on a combination of factors including:
Home Care
Services
Funding             	 Number of patients
                    	 Regional variances in labor and contract costs
                    	 High-cost patients
                    	 Education support
                    	 Research support
                    	 Equipment
                    	 Non-recurring maintenance



VA Office of Inspector General                                                                    23
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    VHA bases the allotments for purchased home care services on the
                    purchased home care NIC ADC targets established for each VISN and
                    national per diem rates. The 21 VISNs are responsible for monitoring the
                    provision of NIC for VA medical facilities in their region, and establishing
                    ADC targets for their facilities. The VISNs develop a medical care fund
                    allocation for each VA medical facility. The allocation includes an allotment
                    for each provided service.

Use of CMS          As part of GEC’s responsibilities, it monitors VA medical facilities’ use of
Certified and       purchased home care services and compliance with applicable policies and
State Licensed      procedures. VHA Handbook 1140.6, Purchased Home Health Care Services
Agencies
                    Procedures, requires VA medical facilities to purchase home care services
                    from agencies that are either State licensed or CMS certified. GEC may
                    grant exemptions for agencies that lack a State license or CMS certification
                    based on the recommendation of the VA medical facility’s VISN Director.

                    CMS monitors, inspects, and certifies agencies if they meet several health
                    and safety standards, including multiple detailed requirements related to
                    skilled nursing services, therapy services, social services, and home aide
                    services. In those States that require home care agencies to have licenses,
                    State licensure also attests to the home care agencies’ qualifications. State
                    licensure typically indicates the agency is compliant with the State’s laws
                    and regulations and the agency’s staff meet applicable State professional
                    requirements.

Oversight of        VHA requires VA medical facilities to integrate a system of oversight and
Agencies’           monitoring for purchased home care services into their overall quality
CMS Quality
                    management program. The handbook requires staff to routinely measure
Measures
                    and analyze quality elements and report issues annually to facility leadership.
                    Subsequently, the handbook requires CMS-certified agencies to perform
                    better than the State average on at least 50 percent of the CMS quality
                    measures. On the CMS Web site, “Home Health Compare” allows VA
                    medical facility staff to obtain information about the agency’s performance,
                    to identify opportunities for quality improvement, and to review patients’
                    questions about the agency.




VA Office of Inspector General                                                                    24
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix B 	 Scope and Methodology

Audit Scope	        We performed audit work from May 2012 through July 2013. We
                    determined if VHA effectively managed purchased home care services and
                    eligible veterans received appropriate services. The audit reviewed skilled
                    care, homemaker/home aide, respite care, and hospice services provided to
                    patients during the period of April 1, 2011, to March 31, 2012.

                    We identified the population of these purchased home care patients through
                    payment data maintained in VHA’s Central Fee Basis System. We selected
                    our universe by identifying all VHA patients receiving over $100 in these
                    purchased home care services during our review period.

                    We developed a two-stage simple random sample that randomly selected VA
                    medical facilities located in different VISNs. This random sample of VA
                    medical facilities is representative of VHA since the sample included both
                    urban and rural facilities. Similarly, we had no reason to believe that we
                    needed to stratify urban and rural VA medical facilities in our sample. After
                    completion of the first stage, we selected unique patients from each selected
                    VA medical facility who received these purchased home care services during
                    our review period. Appendix C provides more information on the statistical
                    methodology for this audit.

                    Table 4 provides purchased home care data for the period April 1, 2011, to
                    March 31, 2012, for the eight selected VA medical facilities.

Table 4
                             VA Medical Facility Purchased Home Care Data
                                                Unique      Average
               Medical Facility Location                                Agencies    Expenditures
                                                Patients     Daily
                      and VISN                                           Used        (in millions)
                                                Served      Census
               Miami, FL (VISN 8)                1,229         352          45           $9.1
               Birmingham, AL (VISN 7)           1,454         211         119            $6.3
               Seattle, WA (VISN 20)              995          184         110            $5.9
               Madison, WI (VISN 12)              752          147         101            $4.1
               Hampton, VA (VISN 6)               587          123          91            $3.1
               Amarillo, TX (VISN 18)             873          107          56            $2.4
               Martinsburg, WV (VISN 5)           319           81          65            $1.9
               Detroit, MI (VISN 11)              207           28          51            $1.2
               Source: VHA Central Fee Basis System and VA OIG analysis


VA Office of Inspector General                                                                    25
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    We evaluated each VA medical facility’s provision and management of
                    purchased home care services, veterans’ eligibility for the received services,
                    and agencies’ eligibility to provide services. We coordinated with VA OIG’s
                    Office of Healthcare Inspections and Office of Investigations to determine if
                    there were any open cases or adverse events related to agencies included in
                    our sample.

Methodology         We interviewed VHA, VISN, and VA medical facility staff to gain an
                    understanding of the controls used to monitor and oversee purchased home
                    care services. During the start of the audit, we discussed with VA and VHA
                    officials our statistical sampling approach. We answered their questions
                    regarding the number and location of sample sites. At that time they
                    concurred with our sampling methodology.

                    In addition, we also consulted with GEC program officials on the
                    methodology to determine an estimate of patients not placed on waiting
                    lists. GEC officials agreed with the methodology and confirmed that they
                    use the population of all enrolled veterans, not just those who use VA
                    services, to generate projections of future demand for services. Lastly, even
                    though program officials had concurred with our audit methodologies
                    throughout the audit in a number of meetings, it wasn’t until the OIG shared
                    its audit results that VA and VHA officials raised concerns about the audit
                    methodologies.

                    We also reviewed VISN information, such as expenditure, ADC, patient,
                    waiting list data, and NIC meeting minutes. At each of the selected VA
                    medical facilities, we reviewed:

                       Budget processes for purchased home care services
                       Unique patient counts and ADCs for FY 2012 and prior years
                       Local eligibility processes and criteria
                       Waiting list documentation
                       Patients’ medical records
                       Purchased home care agency payment documentation

                    We also conducted interviews with VA medical facility staff to determine if
                    veterans who were eligible for services received needed services or were
                    placed on waiting lists as required by VHA policy. In addition, we reviewed
                    agencies’ State licenses and/or CMS certifications to determine if they were
                    eligible and/or met VHA’s quality of care standard.

Fraud               We included audit steps to identify potentially fraudulent activities. We
Detection           developed specific audit steps to determine what management controls, if
                    any, were in place to identify any potentially fraudulent transactions made
                    for the purchased home care services reviewed.

VA Office of Inspector General                                                                    26
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Data Reliability    We relied on computer-processed data in the Central Fee System and VHA
                    Support Service Center and information contained on CMS’s “Home Health
                    Compare” Web page. We assessed the reliability of the Central Fee data by
                    tracing 80 patient records and supporting documentation, such as invoices to
                    data provided by the system, and found them to be adequate. Additional data
                    reliability tests included steps to identify any missing data in key fields,
                    calculation errors, and data outside of our period of performance.

                    We also assessed CMS information by reviewing additional CMS
                    documentation for agencies, such as agency licenses. We also interviewed
                    VA medical facility staff and reviewed relevant waiting list documentation to
                    assess VHA Support Service Center waiting list data. Based on these
                    interviews, tests, and assessments, we concluded the data were sufficiently
                    reliable to meet the audit’s objectives.

Government          Our assessment of internal controls focused on those controls related to our
Standards           audit objectives. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    and to provide a reasonable basis for our findings and conclusions based on
                    our audit objectives. We believe that the evidence obtained provides a
                    reasonable basis for our findings and conclusions based on our audit
                    objectives.




VA Office of Inspector General                                                                    27
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix C          Statistical Sampling Methodology

Sampling            We used a two-stage statistical sample to conduct this audit. The samples
Design              were based on a design precision of 7 percent of the estimated dollar amount,
                    a 90 percent confidence level, and an expected error rate of about 10 percent
                    of the total. During the first stage, we randomly selected eight VA medical
                    facilities using a simple random sampling approach within different VISNs
                    that provided purchased home care services during our review period.

                    It is not feasible to gather information from everyone or every VA medical
                    facility in our population; therefore, using a representative sample (or subset)
                    of that population allowed us to make conclusions about the whole
                    population. Simple random sampling represents the industry standard
                    technique for minimizing sampling error in a study because its strong point
                    comes from randomization. Every VA medical facility in the population had
                    an equal chance of being selected for the sample. The designed confidence
                    level used in this random sample of 8 out of 143 medical facilities is 90
                    percent. This means that if we repeat this audit several times under the same
                    assumptions, we are confident that the outcome will be the same 90 percent
                    of the time.

                    For the second stage, we used the Neyman Optimization formula to calculate
                    the sample size. For this stage, patients who had received the selected
                    purchased home care services were randomly selected using a stratified
                    sampling approach based on dollar amount within the VA medical facilities
                    selected in the first stage. We selected 50 unique patients from each of the
                    8 VA medical facilities. We sampled 400 patients, reviewed 200 home care
                    agencies, and analyzed about 550 billed services totaling about $4.9 million.

Population          Queries from VHA’s Central Fee system disclosed that approximately
                    $553 million in payments were made to about 13,000 agencies for nearly
                    127,000 patients during the period of April 1, 2011, to March 31, 2012. To
                    ensure we reviewed high-dollar transactions to address commensurate risks,
                    we removed patients who received less than $100 in purchased home care
                    services.

Weights             We calculated population estimates using weighted sample data by taking the
                    product of the inverse of probabilities of selection at each stage of sampling.
                    We used WesVar software to calculate population estimates and associated
                    sampling errors. WesVar employs a replication methodology to calculate
                    margins of error and confidence intervals that correctly account for the
                    complexity of the sample design. For the projection of limited access, we
                    used the adjusted Wald method to calculate a 90 percent confidence interval
                    and point estimate because it provides the best coverage for the specified
                    interval when samples are very small.



VA Office of Inspector General                                                                    28
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Projections          Margins of error and confidence intervals are indicators of the precision of
and Margins of       the estimates. If we repeated this audit with multiple samples using the same
Error
                     design for this population, the confidence intervals would differ based on
                     different samples, but would include the true population value 90 percent of
                     the time.

                     We used the lower limit of the 90 percent confidence intervals to estimate the
                     number of facilities that limited access, used stringent criteria, used
                     supplemental review processes, and/or avoided waiting lists to limit access
                     due to the large number of errors identified in our small sample size. Table
                     5 shows the total number of errors identified at the eight VA medical
                     facilities and the annualized projections of the number of facilities VA-wide
                     that limited access.
Table 5
                                 Summary of Projections and Margins of Error:
                                         Facilities Limiting Access
                                                                                 90 Percent
                                 Sample                            Margin        Confidence
                  Type of                 Type of Estimate
                                 Size in                             of           Interval
                   Error                 Projection Number
                                  Error                            Error       Lower    Upper
                                                                               Limit    Limit
               Limited
                                    8      Facilities     129         14         114        143
               Access
               Supplemental
               Reviews
               and/or               7      Facilities     125         18         91         143
               Stringent
               Criteria
               Avoidance
               of Waiting           6      Facilities     107         36         63         143
               Lists
                 Source: VA OIG analysis
                     We summarized the errors and VA-wide projections to show the:

                     	 Total number of errors identified at the eight reviewed medical facilities
                     	 Annual projections of the number of ineligible and/or high-risk agencies
                        lacking monitoring and payments made to these agencies lacking
                        monitoring
                     	 Respective ranges between the lower and upper limits of the 90 percent
                        confidence intervals for each projection




VA Office of Inspector General                                                                    29
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    Table 6 summarizes the errors and VA-wide projections related to the
                    inadequate management of agencies and documentation of orders.
Table 6
                              Summary of Projections and Margins of Error:
                     Inadequate Management of Agencies and Documentation of Orders

                                                                                    90 Percent
                                                        Estimate    Margin      Confidence Interval
                                 Sample
                    Type of                 Type of     Number      of Error     Lower       Upper
                                 Size in
                     Error                 Projection     ($ in       ($ in      Limit
                                  Error                                                      Limit
                                                        millions)   millions)     ($ in       ($ in
                                                                                millions)   millions)

                                           Agencies       1,311       499         811        1,810
                  Ineligible
                                   31
                  Agencies                 Payment
                                                        $178.7      $90.2       $88.5       $268.9
                                           Amount
                  High-Risk                Agencies         770       347         423        1,116
                  Agencies
                                   19
                  Lacking                  Payment
                  Monitoring                              $21.2       $8.5      $12.7        $29.7
                                           Amount
                  Patient
                  Billings
                                           Payment
                  With             14                      $7.1       $4.4       $2.6        $11.5
                                           Amount
                  Improper
                  Payments
                  Source: VA OIG analysis

                    We used the midpoint of the 90 percent confidence interval for the number of
                    ineligible and high-risk agencies lacking monitoring. For the inadequate
                    documentation of orders, we used the lower limit of the 90 percent
                    confidence interval due to the low number of errors identified in our sample
                    and because of the large variability.

                    We used an exponential smoothing forecasting technique to project the
                    number of ineligible agencies VHA will use and/or high-risk agencies that
                    will lack adequate monitoring over the next 5 years if management controls
                    are not strengthened. The Microsoft Excel formula predicts a value that is
                    based on the forecast for the prior period, adjusted for the error in that prior
                    forecast. We also multiplied the payment amounts in Table 6 by 5 years to
                    project the potential payments made to these ineligible and/or high-risk
                    agencies and possible improper payments for the selected purchased home
                    care services. The 5-year projections follow.

                    	 Approximately, 1,400 ineligible agencies will provide services at a cost
                       of about $893.5 million ($178.7 million × 5 years).

VA Office of Inspector General                                                                       30
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    	 Approximately, 800 high-risk agencies will provide $106 million
                       (21.2 million × 5 years) in services without adequate oversight.
                    	 Improper payments for the selected purchased home care services will
                       increase to about $13.2 million ($2.6 million × 5 years). Due to
                       rounding, the product of the improper payments multiplied by 5 years
                       does not exactly equal $13.2 million.




VA Office of Inspector General                                                                    31
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix D 	 FY 2012 VISN Funding Allotments and Average Daily
             Census Data for Selected Purchased Home Care
             Services

                    Table 7 compares the allotments and expenditures for purchased home care
                    services by VISN in FY 2012. The VISNs are presented in order based on
                    how they performed relative to their ADC targets as shown in the last
                    column on the right. In FY 2012, VHA allotted the VISNs about
                    $599 million for homemaker/home aide, respite, and skilled care services.

                    However, VA facilities spent just under $501 million or 17 percent less than
                    the allotted amount and missed their combined VISN ADC target of about
                    24,500 patients for these services by about 4,500 patients. Sixteen VISNs
                    did not spend the amount allotted for these services and did not meet their
                    ADC targets. The VISN budget allocation column represents the estimated
                    amount of general medical services funding each VISN was expected to
                    spend to meet the performance measure (ADC target) assigned by GEC.




VA Office of Inspector General                                                                    32
                                                                Audit of Selected VHA Non-Institutional Purchased Home Care Services



         Table 7. FY 2012 VISN Budget and ADC Data for Selected Purchased Home Care Services Excluding Hospice
                                                                                                                      Difference
                                                               Difference                              ADC
                          VISN Budget         VISN                                 ADC Target                        Between ADC
       VISN                                                  Between Budget                        Performance
                           Allocations     Expenditures                             (rounded)                        Performance
                                                            and Expenditures                        (adjusted)
                                                                                                                      and Target
16: Ridgeland, MS        $49,504,738        $24,654,727         -$24,850,011           2,021            1,126              -895
21: Mare Island, CA      $25,351,017        $18,261,224          -$7,089,793           1,035              539              -496
04: Pittsburgh, PA       $37,828,625        $24,101,442         -$13,727,183           1,544            1,077              -468
11: Ann Arbor, MI        $27,250,859        $17,351,223          -$9,899,636           1,113              674              -439
22: Long Beach, CA       $30,615,163        $30,171,097            -$444,065           1,250              816              -434
01: Bedford, MA          $29,022,066        $21,542,966          -$7,479,100           1,185              758              -427
20: Vancouver, WA        $25,944,718        $21,909,313          -$4,035,404           1,059              708              -351
09: Nashville, TN        $27,428,969        $19,524,782          -$7,904,187           1,120              807              -313
17: Arlington, TX        $26,310,833        $18,677,991          -$7,632,842           1,074              853              -221
03: Bronx, NY            $27,339,914        $22,718,751          -$4,621,164           1,116              941              -175
05: Linthicum, MD        $15,277,896        $14,474,130            -$803,766             624              465              -159
02: Albany, NY           $14,120,180         $7,106,533          -$7,013,647             577              422              -155
08: Bay Pines, FL        $56,183,870        $49,865,686          -$6,318,184           2,294            2,141              -153
07: Duluth, GA           $35,325,188        $26,467,077          -$8,858,110           1,442            1,291              -152
18: Mesa, AZ             $24,777,106        $22,989,145          -$1,787,962           1,012              867              -144
15: Kansas City, MO      $23,372,015        $17,529,006          -$5,843,009             954              870               -84
12: Hines, IL            $25,054,167        $25,743,801             $689,634           1,023              988               -35
19: Glendale, CO         $17,157,948        $18,784,318           $1,626,370             701              744                43
06: Durham, NC           $31,020,858        $31,515,680             $494,822           1,267            1,426               160
23: Minneapolis, MN      $28,458,050        $39,313,798          $10,855,748           1,162            1,346               185
10 Cincinnati, OH        $21,957,028        $27,862,729           $5,905,701             896            1,149               253
         Total          $599,301,210       $500,565,421          $98,735,789         24,466            20,009            -4,457
 Source: VHA Support Service Center, VHA Central Fee Basis System, and VA OIG analysis



    VA Office of Inspector General                                                                                               33
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix E          Potential Monetary Benefits in Accordance With
                    Inspector General Act Amendments



                                                                      Better Use of          Questioned
     Recommendation              Explanation of Benefits
                                                                         Funds                 Costs

                             Strengthen controls over
                             purchased homecare
               6             services to reduce the use               $893.5 million              $0
                             of ineligible agencies over
                             the next 5 years.

                             Strengthen controls over the
                             preparation of orders and
                             verification of billed
               8                                                              $0             13.2 million
                             purchased homecare
                             services over the next
                             5 years.

                                                        Total8        $893.5 million        $13.2million9




                    8
                      These amounts are not a “cost savings” since these vital services are still needed in the 

                    future.

                    9
                      These questioned costs are projected from the findings identified at one of the eight VA

                    medical facilities we reviewed. 



VA Office of Inspector General                                                                              34
                                     Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix F              Under Secretary for Health Comments




                  Department of                                     Memorandum
                  Veterans Affairs
          Date:	      September 23, 2013

          From:	      Under Secretary for Health (10)

          Subj:	      VA Office of Inspector General (OIG) Draft Report, Veterans Health
                      Administration, Audit of Selected Non-Institutional Purchased Home Care
                      Services (VAIQ 7392065)

            To:       Assistant Inspector General for Audits and Evaluations (52)

                   1. 	 Thank you for the opportunity to review the draft report detailing the Office of
                        Inspector General’s (OIG) audit of eight Veterans Affairs (VA) medical centers. I
                        concur with OIG’s recommendations. I have strong plans in place to address
                        those recommendations, and will provide action plans to improve the provision
                        of non-institutional purchased home care services to Veterans. However, I have
                        concerns about some of the estimates and projections presented in this report.
                   2. 	 I am concerned that this report does not account for the significant variability in
                        access to local home care agencies. The report assumes that because
                        Veterans Health Administration (VHA) has a national policy on purchasing home
                        care services, all facilities have the same access to purchased home care
                        service providers in their local community. Yet, each facility is limited to only
                        those agencies that serve the patient’s locale (home), and then to only those
                        services provided by that agency. In urban areas multiple agencies may provide
                        comprehensive services, while in rural areas, there may be only one agency that
                        provides limited services depending on the skill set of their workforce.
                   3. 	 I concur with OIG that some funds were used to pay ineligible home care
                        agencies, and VHA is working to strengthen our performance in this area.
                        However, I do not agree with OIG’s national estimate of the number of VA
                        medical centers potentially limiting access to services (114), the projected
                        potential use of ineligible agencies (1,300), or the projection that VA could pay
                        $893.5 million to ineligible agencies over 5 years. These estimates and
                        projection are based on data generated by simple random, as opposed to
                        stratified, sampling methodology, and thus do not accurately represent the
                        complexity of non-institutional purchased home care for Veterans nation-wide.
                        Additionally, they do not contain the level of reliability needed for national health
                        care decision making.
                   4. 	 OIG may not be aware that many Veterans administratively enroll at their local
                        VA medical centers just in case they might want to supplement their private care
                        with VA services in the future. Only a subset of enrolled Veterans elect to use




VA Office of Inspector General                                                                                  35
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services




                   VA clinicians for their care. Therefore I do not concur with the national estimate
                   in the report that 49,000 Veterans who should have been wait listed for
                   purchased home and community based services (HCBS) were not wait listed, as
                   reported in Table 2. VHA has developed improved mechanisms to assure that
                   Veterans who are enrolled with VA for health care either receive purchased
                   home health care for their needs or are placed on a wait list which will be
                   tracked.
               5. 	 OIG correctly identified improper payments at one facility. This will be
                    addressed, and appropriate personnel at all other facilities will receive clear and
                    comprehensive guidance on proper documentation of orders for these services.
                    I am pleased that OIG did not identify any significant problems in the
                    documentation of orders at the other seven facilities they audited. However I do
                    not concur with the 5-year projection of $13.2 million in improper payments. This
                    figure is based on actual improper payments of $67,000 at the one problematic
                    facility. I believe there is insufficient justification to support the projection
                    beyond the actual finding, particularly in light of my aforementioned concerns
                    about the facility sampling methodology.
               6. 	 I am concerned with Table 7 of Appendix D, which shows “VISN Budget
                    Allocations”. Funds for Purchased HCBS programs are sent to the VISNs as
                    General Purpose Funds and not specifically reserved for Purchased HCBS
                    programs.
               7. 	 If you have any questions, please contact Karen M. Rasmussen, M.D., Acting
                    Director, Management Review Service (10AR) via telephone at (202) 461-6643.




                   Attachment




VA Office of Inspector General                                                                            36
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                      VETERANS HEALTH ADMINISTRATION (VHA)
                                   Action Plan

OIG Draft Report, Audit of Selected Non-Institutional Purchased Home Care Services
(VAIQ 7392065)

Date of Draft Report: August 1, 2013


Recommendations/                                            Status                    Completion        

Actions                                                                                       Date      



Recommendation 1: We recommended the Under Secretary for Health ensure VA medical
facilities apply standardized eligibility criteria and ensure purchased home care review
processes are not improperly used to limit access to purchase home care services.

VHA Comments

Concur

1) The Offices of the Deputy Under Secretary for Health for Policy and Services (DUSHPS,
10P) and Deputy Under Secretary for Health for Operations and Management (DUSHOM,
10N) have initiated a three-part education and oversight plan.

     a)	 The Office of the Assistant Deputy Under Secretary for Health (ADUSH) for Clinical
         Operations (10NC) is responsible for presenting to Veterans Integrated Service
         Network (VISN) and facility leadership a review of national policy on eligibility
         criteria for Purchased Home and Community Based Services (HCBS) (VHA
         Handbook 1140.06).

     b)	 10NC is responsible for instructing facilities to replace any more stringent local
         policies with National policy to ensure a standardized process is in place.

     c)	 The Office of the ADUSH for Health for Patient Care Services (10P4) and Geriatrics
         and Extended Care Services (10P4G) in collaboration with 10NC and the Office of
         Geriatrics and Extended Care Operations (10NC4) will conduct education with
         clinical program leadership at VISN and facility level on the national call for each
         program.
                                                            In process         October 31, 2013

2) 10NC4 will conduct an audit of facility policies for Purchased HCBS from a sample of
Veterans Affairs Medical Centers (VAMC). VHA will begin the audit Quarter 1 of Fiscal Year
2014 to ensure that national policy is implemented.
                                                            In process         March 31, 2014


VA Office of Inspector General                                                                    37
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


3) 10NC4 will conduct phone audits to identify and report on local criteria for Purchased Care
programs. The audit will look at a sample of facilities in Quarter 1 and Quarter 2 of Fiscal Year
2014. VHA will then expand the phone audit or transition the audit process to the Veterans
Integrated Service Networks (VISN).
                                                            In process          March 31, 2014

To close this action plan, VHA will provide:
1. Documentation that the presentation of the review of national policy and eligibility criteria
   was held, and when.
2. Documentation of VHA’s direction to facilities to align local policies with national policy.
3. Schedule of educational calls and one post call meeting note referencing the call discussions,
   to include a list of attendees.
4. Summary of results of the audit of facility policies for two quarters
5. Summary of results of the phone audit on eligibility criteria for two quarters.

Recommendation 2: We recommended the Under Secretary for Health ensure VA
medical facilities maintain waiting lists for purchased home care services and assess
eligible veterans’ unmet needs for services.

VHA Comments

Concur

1) VHA has initiated changes in the Electronic Waiting List (EWL) software package to more
accurately account for the various Purchased Home and Community Based Services (HCBS)
programs. Once the software changes are complete, 10NC4 will provide education in written
form and via scheduled conference calls with all HCBS management and clinical groups.
10NC4 will require that electronic wait lists be monitored at the local, VISN, and Veterans
Affairs Central Office (VACO) level. EWL reports from VISNs will be submitted to 10NC4 on
a quarterly basis beginning Quarter 1 of FY 2014, with action plans required as appropriate to
address unmet needs for Veterans who are on the EWL greater than 30 days. If VISN
performance on Non-Institutional Care (NIC) Performance Measure falls below 80 percent, an
audit will be triggered.
                                                            In process             March 31, 2014

To close this action plan VHA will provide:
1. Documentation of the written and conference call education provided to the field.
2. The EWL monitoring report from a sample of facilities, all VISNs, and VACO for two
   quarters
3. The Quarter 1 FY 2014 and Quarter 2 FY 2014 reports from VISN to VACO on EWLs.
4. The remediation plan from a facility or facilities that has/have Veterans waiting for services
   greater than 30 days.
5. Number of facilities that will be audited due to NIC performance below 80 percent.

Recommendation 3: We recommended the Under Secretary for Health correct eligibility
information in VA’s “Veterans’ Health Care Benefits Overview” booklet and on the

VA Office of Inspector General                                                                    38
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Office of Geriatrics and Extended Care’s Web site to be consistent with VHA policy and
indicate veterans do not have to be homebound to be eligible for purchased skilled care
services.

VHA Comments

Concur

1) The Geriatrics and Extended Care Website will be corrected to reflect the appropriate clinical
criteria for admission to Home and Community Based Services (HCBS).
                                                           In process              October 30, 2013

2) VHA’s Chief Business Office (CBO) will incorporate the correction into the next publication
of The Veteran’s Health Care Benefits Overview booklet, which is scheduled to be printed in
late September 2013.
                                                           In process           November 30, 2013

To close this action plan VHA will provide:
1. The web link to the Geriatrics and Extended Care Website that contains the appropriate
clinical criteria for admission to HCBS.
2. A copy of (or web link to) the final approved section in the Veterans’ Health Care Benefits
Overview booklet that contains corrected information. Closure does not depend on waiting for
final publication – but rather that the language has been approved for final publication.

Recommendation 4: We recommended the Under Secretary for Health strengthen
non-institutional care program oversight to monitor budgeted and expended funding for
purchased home care services and ensure average daily census performance monitoring
data is accurate, reliable, and transparent.

VHA Comments

Concur

1) VHA has initiated improvements in the Access to Non-Institutional Care (NIC) performance
measure. Workload for Purchased Home and Community Based Services (HCBS) will use
visits instead of line items. 10P4G will generate monthly reports on workload and 10NC4 will
require written plans and updates from VISNs which are performing below the 92 percent level.
This change will positively affect the accuracy, reliability and transparency of reported
workload.

                                                           In process           December 31, 2013

2) 10P4G will monitor obligations in selected Home and Community Based Services (HCBS)
programs. Each VISN and VAMC will have a per census per month obligation target for
Homemaker/Home Health Aide (H/HHA), Community Adult Day Health Care (CADHC),
Home Respite, and Veteran Directed HCBS. 10P4G will generate monthly reports on


VA Office of Inspector General                                                                    39
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


obligations and 10NC4 will determine the requirement for written plans and updates from
VISNs that are performing below the 80 percent level of the obligation targets.

                                                           In process           December 31, 2013

3) 10P4G will monitor workload and obligations in Purchased Skilled Home Care. VHA will
enhance its monthly workload and obligations reports to establish appropriate baselines. Once
the baseline has been determined, 10NC4 will require written plans and updates from VISNs
that are performing below the 92 percent level.

                                                           In process                 May 31, 2014

To close this action plan, VHA will provide:
1. The Quarter 2 FY 2014 monthly report on workload and the written plan from any VISN(s)
   that is/are performing below the 92 percent of the NIC Access Performance Measure.
2. The March 2014 monthly report on obligations and a list of VISNs required to provide
   written plans and updates (i.e., VISNs that are performing below 80 percent of the obligation
   targets).
3. The March 2014 monthly report on obligations for Purchased Skilled Home Care and a list of
   VISNs required to provide written plans and updates (i.e., VISNs that are performing below
   92 percent of the NIC Access Performance Measure).

Recommendation 5: We recommended the Under Secretary for Health implement
effective performance measures for purchased home care services to ensure VA medical
facilities do not improperly limit access to services.

VHA Comments

Concur

1) Access to Non-Institutional Care (NIC) performance measure will be written into all
Network Director Performance Plans as a mandatory measure for Fiscal Year 2014.

                                                           In process               March 31, 2014
2) 10P4G will develop an access performance measure which will include VISN recommended
ranges for personal care services in the aggregate (combining Homemaker/Home Health Aide
(H/HHA), Community Adult Day Health Care (CADHC), Home Respite, and Veteran Directed
HCBS).
                                                           In process               March 31, 2014

3) The Office of the DUSHOM (10N) will institute an access performance measure which will
include VISN recommended ranges for personal care services in the aggregate (combining
H/HHA, CADHC, home respite, and Veteran Directed HCBS).
                                                           In process                 June 30, 2014

To close this action plan, VHA will provide:

VA Office of Inspector General                                                                    40
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


1.	 Documentation from the Office of the DUSHOM (10N) certifying that this measure is in
    each Network Director’s Performance Plan.
2.	 Documentation of the Performance Measure in VHA’s technical manual

Recommendation 6: We recommended the Under Secretary for Health implement
management controls to ensure VA medical facilities adhere to the Veterans Health
Administration’s requirements related to the identification and management of ineligible
and high-risk purchased home care agencies.

VHA Comments

Concur

1) 10P4G will prepare a memorandum for the DUSHOM (10N) to issue to the field reinforcing
and clarifying requirements for Quality Oversight and Monitoring of Purchased Home Care
Services. Exemptions may be granted by Geriatrics and Extended Care (10P4G and 10NC4,
jointly) on the cost of maximum care, licensure, or accreditation of community services on the
recommendation of the VISN Director.
                                                           In process              January 10, 2014

2) VACO will conduct an audit of 25 facilities in Quarter 1 of Fiscal Year 2014, to verify
compliance with requirements for Quality Oversight and Monitoring of Purchased Home Care
Services. Validation of waivers will be requested for agencies not meeting eligibility criteria
outlined in VHA policy. Additional periodic audits may be performed in the future as deemed
necessary.
                                                           In process              January 31, 2014
To close this action plan, VHA will provide:
1. An electronic copy of the memo from the DUSHOM (10N).
2. A summary of the audit results for one quarter.

Recommendation 7: We recommended the Under Secretary for Health clarify the
Veterans Health Administration’s purchased home care policies and provide appropriate
VA medical facility staff training on the proper use of eligible purchased home care
agencies, exemptions, and the monitoring of high-risk agencies.

VHA Comments

Concur

1) VHA will provide written clarifications of policy regarding the use of home care agencies,
appropriate monitoring, and the exception approval process. In addition, VHA will hold
training on this subject across management and clinical staff levels.
                                                            In process              March 30, 2014

To close this action plan, VHA will:


VA Office of Inspector General                                                                    41
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


1. Provide the written policy clarification.
2. Provide the dates of planned training scheduled for VHA management and clinical staff, with
   one set of post educational notes to include attendees.

Recommendation 8: We recommended the Under Secretary for Health establish effective
controls and monitors to ensure providers properly document orders and fee staff
properly verifies the appropriateness of the services in accordance with VA fee policies
before they pay for purchased home care services.

VHA Comments

Concur

1) A memo will be issued from the DUSHOM (10N) reinforcing and clarifying the
requirements for Non-VA Medical Care Office (fee) staff at each VAMC to review and verify
the documentation includes an order for purchased home care services, type of service,
frequency, and duration of service to be delivered.
                                                            In process             October 31, 2013

2) The homecare coordinator will conduct quarterly reviews to ensure that orders are properly
documented, and report periodically to the VISN.
                                                            In process             January 10, 2014

To close this action plan, VHA will provide:
1. The memo issued by the DUSHOM (10N).
2. Will submit one quarter of review/results ensuring that orders are properly documented.



Veterans Health Administration
September 2013




VA Office of Inspector General                                                                    42
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix G 	 Office of Inspector General Response to the Under
             Secretary’s Comments

                    The Under Secretary for Health raised a number of concerns about our
                    estimates and statistical projections after reviewing our draft report on
                    non-institutional purchased home care services. Specifically, the Under
                    Secretary states that:
                   	 The report does not account for the possible variability in access to local
                      home care agencies and services.
                   	 He does not agree with the report’s projections of the number of VA
                      medical facilities limiting access, the number of ineligible agencies, and
                      the amount paid to ineligible agencies because he states that OIG’s use of
                      random sampling does not adequately represent the complexity of
                      purchased home care for veterans nation-wide and does not yield reliable
                      results for decision making.
                   	 He non-concurs with our estimate that 49,000 veterans have not been
                      placed on waiting lists for purchased home care services because only a
                      subset of enrolled veterans actually use VA services.
                   	 The OIG is not justified in its projection of the improper payments it
                      identified at one of the eight reviewed VA medical facilities.
                   	 The “VISN Budget Allocations” provided in Table 7 of Appendix D
                      could be misconstrued as reserved purchased home care services funding
                      and not general purpose funds that can be used to provide any medical
                      service.
                    These concerns were not raised by VA or VHA program staff at the start of
                    the audit, nor during the course of the audit, when the OIG briefed them on
                    its statistical sampling approach and results and the development of an
                    estimate of the number of veterans not placed on waiting lists. We also had a
                    number of meetings with VA and VHA officials since the end of the audit to
                    discuss our statistical sampling methodology and our waiting list estimate.
                    At this time, the OIG provides the following response to address the Under
                    Secretary’s specific concerns:
                    Accounting for Potential Variability in Veterans’ Access. The OIG
                    ensured its audit adequately accounted for possible variations in veterans’
                    access to local home care agencies through its use of statistical sampling.
                    Statistical samples are objective and unbiased, and yield audit results that are
                    representative of the entire population. Given this premise, any condition or
                    characteristic identified at the selected eight VA medical facilities would be
                    representative of those found in VA’s population of medical facilities.
                    Although variability in access to home care agencies could, as the Under
                    Secretary noted, limit veterans access to home care services, this was not a
                    factor at the eight statistically selected VA medical facilities we reviewed.


VA Office of Inspector General                                                                    43
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    The eight reviewed VA medical facilities had home care agencies available
                    to provide needed purchased home care services regardless of whether the
                    patients lived in an urban or rural area. The reviewed VA medical facilities
                    limited access to purchased home care services due to funding constraints,
                    the desire to contain fee program costs, the promulgation of inaccurate
                    eligibility criteria, and the absence of adequate program oversight. For these
                    reasons, we do not consider the lack of available home care agencies to serve
                    patients a salient factor in the current discussion. Further, given the high
                    error rate of VA medical facilities (100 percent) that limited access in our
                    sample, the OIG used the lower limit of 114 VA medical facilities instead of
                    143 facilities to account for potential unknowns in the population.
                    Use of Random Sampling. The Under Secretary does not agree with our
                    projections because he contends that a random sample does not accurately
                    represent the complexity of purchased home care and it is not reliable for
                    national decision making. As the OIG stated previously, it believes that
                    randomly selected sites provide an accurate representation of purchased
                    home care services in VA because the statistically selected sites are
                    representative of VA’s universe of medical facilities, their patient
                    populations, and the conditions under which the facilities operate. The
                    statistical projections on Appendix C show the confidence level for our
                    estimates, thus showing reliability of our results. The 8 VA medical
                    facilities we visited were located in 8 of VHA’s 21 VISNs, represented VA
                    medical facilities in urban and rural areas, and represented 3 of VHA’s 5
                    facility complexity levels.10

                    Similarly, the OIG disagrees with the Under Secretary’s assertion that a
                    stratified random sampling approach would have yielded more accurate
                    results than a random sample. This audit was performed to assess VA
                    medical facilities’ implementation of VHA patient eligibility and waiting list
                    policies and compliance with VHA home care agency review and monitoring
                    requirements. Simple random sampling increased the accuracy and precision
                    of our projections because each facility had an equal chance of being
                    selected in our test to determine whether or not VA medical facilities across
                    the country properly applied VHA purchased home care policies. In
                    contrast, stratified sampling would require the sampling of various facility
                    groupings using characteristics that may or may not have any bearing on the
                    level of compliance with VHA policy. Further, our review results for the
                    eight VA medical facilities demonstrated that stratified sampling was not
                    necessary in this instance. Regardless of geographic location, differences in
                    facility complexity level, and possible variations in home care agency
                    availability, all eight of the reviewed VA medical facilities limited access, to
                    some degree, due to internal factors such as the need to control fee program
                    10
                      VHA’s Office of Quality and Safety defines complexity as characteristics of the patient
                    population, clinical services offered (cardiac surgery is considered more complex than throat
                    surgery), educational and research missions, and administrative complexities.


VA Office of Inspector General                                                                                44
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    costs, the need to make funds available for higher priorities, or a reliance on
                    incorrect eligibility information. See Appendix C for specific information on
                    our statistical sampling methodology.
                    Estimate of Patients Not Placed on Waiting Lists. The Under Secretary
                    for Health disagrees with the OIG’s estimate that 49,000 veterans were not
                    placed on waiting lists because our estimate used the number of enrolled
                    veterans to determine the demand for services and he states that only a subset
                    of enrolled veterans actually uses VA services. While the Under Secretary
                    for Health raises a real life situation that merits some consideration, we
                    affirm our use of the enrolled veteran population to prepare our estimate.
                    GEC officials who we consulted with during the course of the audit agreed
                    with our methodology and confirmed that use of the enrolled veteran
                    population was consistent with the current standards and methodologies
                    VHA uses to forecast the demand, develop the budget, and allocate funds
                    and resources for purchased home care services. GEC obtains data from the
                    VA Enrollee Health Care Projection Model to forecast the demand for
                    purchased care services and to prepare VA’s annual budget requests for
                    purchased home care services. This model uses the population of all enrolled
                    veterans, not just those who use VA services, to generate its projections.

                    Improper Payments Projected From Results of One VA Medical
                    Facility. The OIG understands the Under Secretary’s concerns regarding the
                    national projection of $13.2 million in improper payments based on the
                    results from one VA medical facility. The OIG took this into consideration
                    and used the lower limit projection of $13.2 million instead of the middle
                    estimate of $35.5 million to determine the number of improper payments
                    VHA will make over the next 5 years. Further, the OIG asserts that under
                    the principles of statistical sampling, this is a valid projection. The
                    fundamental premise behind statistical sampling is that if one objectively
                    calculates a sample size and selects a small subset of items to test, the results
                    of the evaluation can be used to make an inference about the larger target
                    population. Further, in probability sampling, all items must have a known
                    chance of selection and the items must be selected through a random
                    procedure in order to avoid selection bias. Using probability sampling
                    principles, the OIG applied a statistical formula to the improper payments
                    identified at one VA medical facility to estimate values for the entire
                    population and to calculate margins of error for estimates to the entire
                    population. As a result, the OIG contends the projection is valid and that
                    action is needed across VA to try to prevent similar improper payments from
                    occurring at other VA medical facilities because the errors, even at only one
                    VA medical facility in our sample are representative of additional errors in
                    the remaining population of VA medical facilities. Appendix C has more
                    information on our statistical sampling methodology, which describes how
                    our projections for two-stage sampling approach were derived.




VA Office of Inspector General                                                                    45
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


                    VISN Budget Allocations. The OIG notes the Under Secretary’s concern
                    and provided clarification for the “VISN Budget Allocations” data in
                    Appendix D.




VA Office of Inspector General                                                                    46
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix H          Office of Inspector                 General        Contact       and      Staff
                    Acknowledgments

                      OIG Contact 	                 For more information about this report, please
                                                    contact the Office of Inspector General at
                                                    (202) 461-4720.

                      Acknowledgments               Janet Mah, Director
                                                    Edesha Basa
                                                    Lee Giesbrecht
                                                    Milan Gokaldas
                                                    Andrea Lui
                                                    Kelly Perry
                                                    Corina Riba
                                                    Daniel Rico
                                                    Nelvy Viguera Butler




VA Office of Inspector General                                                                    47
                                 Audit of Selected VHA Non-Institutional Purchased Home Care Services


Appendix I          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                    48
